No.
/

IN THE
SUPREME COURT OF THE UNITED STATES

RANAU

JOHNSON,

— PETITIONER

(Your Name)
VS.
STATE OF OHIO,

— RESPONDENTS)

PROOF OF SERVICE
Ranau
August 13/

I,

Johnson/

, do swear or declare that on this date,
20!0_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Michael O'Malley/ Esq., Cuyahoga County Prosecutor at the
Justice Center, 8th. & 9th Floors, 1200 Ontario Street,
Cleveland, Ohio 44113.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Ul

2o2Q_

(Sigimture)

CERTIFICATE OF SERVICE
I hereby certify that a true and accurate copy of the
foregoing Petition for Writ of Certiorari was delivered to
prison officials on the

13

day of August,

2020, to be sent

by regular U.S. mail with proper postage to Michael O'Malley, Esq.,
Cuyahoga County Prosecutor/ Justice Center, 8th. & 9th. floors
1200 Ontario Street, Cleveland, Ohio 44113.
Respectfully submitted,

Qfm.

Ranau Johnson,, #A702-557
Petitioner, pro se
Lake Erie Correctional Institution
501 Thompson Road
P.O. Box 8000
Conneaut, Ohio 44030
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August

13 ,

2020.

.

-20-

